                                                  NATIONAL SCIENCE FOUNDATION:
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                           -CLOSEOUT MEMORANDUM
                                                             .,




 Case Number: 108120057                                                                      Page 1 of 1



          This investigation was -opened pursuant to an allegation that an NSF employee 1 had falsified -
         -infonnation. in the ITAS system and had also falsified and received overtime pay for work not
          perfonned.

         Areview was conducted ofthe employee's ITAS records, building access data, and emails.
         Infonnation obtained from the employee, her supervisoi, the employee's ITAS records and
         building access data corroborated that she had worked overtime hours and completed the
         overtime tasks successfully. However, in attempting to detennineif the employee had falsified
         her ITAS data, the evidence was inconclusive.

         Accordingly, this matter is closed.




         2




NSF OIG Form 2 (11102)
